<html>
<title> - OVERSIGHT OF THE FEDERAL BUREAU OF PRISONS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                    OVERSIGHT OF THE FEDERAL BUREAU
                               OF PRISONS

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                 HOMELAND SECURITY, AND INVESTIGATIONS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 17, 2018

                               __________

                           Serial No. 115-55

                               __________

         Printed for the use of the Committee on the Judiciary
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         


      Available via the World Wide Web: http://judiciary.house.gov
                         
                         
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
32-843 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1e796e715e7d6b6d6a767b726e307d717330">[email&#160;protected]</a>                         
                         
                         
                         
                         COMMITTEE MEMBERSHIP
                     ONE HUNDRED FIFTEENTH CONGRESS
                       COMMITTEE ON THE JUDICIARY

                                 ------                                
                   BOB GOODLATTE, Virginia, Chairman

 F. JAMES SENSENBRENNER, Jr.,         JERROLD NADLER, New York
    Wisconsin                         ZOE LOFGREN, California
 LAMAR SMITH, Texas                   SHEILA JACKSON LEE, Texas
 STEVE CHABOT, Ohio                   STEVE COHEN, Tennessee
 DARRELL E. ISSA, California          HENRY C. ``HANK'' JOHNSON, Jr., 
 STEVE KING, Iowa                        Georgia
 LOUIE GOHMERT, Texas                 THEODORE E. DEUTCH, Florida
 JIM JORDAN, Ohio                     LUIS V. GUTIERREZ, Illinois
 TED POE, Texas                       KAREN BASS, California
 TOM MARINO, Pennsylvania             CEDRIC L. RICHMOND, Louisiana
 TREY GOWDY, South Carolina           HAKEEM S. JEFFRIES, New York
 RAUL LABRADOR, Idaho                 DAVID CICILLINE, Rhode Island
 BLAKE FARENTHOLD, Texas              ERIC SWALWELL, California
 DOUG COLLINS, Georgia                TED LIEU, California
 RON DeSANTIS, Florida                JAMIE RASKIN, Maryland
 KEN BUCK, Colorado                   PRAMILA JAYAPAL, Washington
 JOHN RATCLIFFE, Texas                BRAD SCHNEIDER, Illinois
 MARTHA ROBY, Alabama                 VALDEZ VENITA ``VAL'' DEMINGS, 
 MATT GAETZ, Florida                     Florida
 MIKE JOHNSON, Louisiana
 ANDY BIGGS, Arizona
 JOHN RUTHERFORD, Florida
 KAREN HANDEL, Georgia

          Shelley Husband, Chief of Staff and General Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                                 ------                                

Subcommittee on Crime, Terrorism, Homeland Security, and Investigations

            F. JAMES SENSENBRENNER, Jr.,  Wisconsin, Chairman
                   LOUIE GOHMERT, Texas, Vice-Chairman
 STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
 TED POE, Texas                       VALDEZ VENITA ``VAL'' DEMINGS, 
 TREY GOWDY, South Carolina              Florida
 JOHN RATCLIFFE, Texas                KAREN BASS, California
 MARTHA ROBY, Alabama                 CEDRIC L. RICHMOND, Louisiana
 MIKE JOHNSON, Louisiana              HAKEEM S. JEFFRIES, New York
 JOHN RUTHERFORD, Florida             TED LIEU, California
                                      JAMIE RASKIN, Maryland
                                CONTENTS

                              ----------                              

                             APRIL 17, 2018

                           OPENING STATEMENTS

                                                                   PAGE
The Honorable Jerrold Nadler, New York, Ranking Member, Committee 
  on the Judiciary...............................................     6
The Honorable F. James Sensenbrenner, Wisconsin, Chairman, 
  Subcommittee on Crime, Terrorism, Homeland Security, and 
  Investigations, Committee on the Judiciary.....................     1
The Honorable Sheila Jackson Lee, Texas, Ranking Member, 
  Subcommittee on Crime, Terrorism, Homeland Security, and 
  Investigations, Committee on the Judiciary.....................     8

                               WITNESSES

Mr. Mark S. Inch, Director, Federal Bureau of Prisons
    Oral Statement...............................................     2

 
               OVERSIGHT OF THE FEDERAL BUREAU OF PRISONS

                              ----------                              


                         TUESDAY, APRIL 17, 2018

                        House of Representatives,

                       Committee on the Judiciary,

        Subcommittee on Crime, Terrorism, Homeland Security, and 
                             Investigations

                             Washington, DC.

     The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2141, Rayburn House Office Building, Hon. Jim 
Sensenbrenner [chairman of the subcommittee] presiding.
     Present: Representatives Sensenbrenner, Gohmert, Chabot, 
Poe, Roby, Johnson of Louisiana, Rutherford, Marino, Jackson 
Lee, Nadler, Demings, Bass, Richmond, Jeffries, Lieu, and 
Raskin.
     Staff Present: Jason Cervenak, Counsel; Scott Johnson, 
Professional Staff Member; and Joe Graupenspergerm, Minority 
Counsel.
     Mr. Sensenbrenner. Subcommittee will be in order. Forum 
for taking the testimony is present. Today's hearing is 
oversight over the U.S. Bureau of Prisons. Without objection, 
the chair is authorized to declare recesses of the subcommittee 
at any time. I am going to ask unanimous consent to put my 
opening statement in the record. Without objection, so ordered. 
I also ask unanimous consent that all members may put their 
opening statements in the record. And without objection, so 
ordered.
    [The information follows:]
     Mr. Sensenbrenner. We have a very distinguished witness 
today. I will begin by swearing in Director Inch before 
introducing him. Mr. Inch, could you please stand and raise 
your right hand? Do you solemnly swear the testimony you are 
about to give to this committee should be the truth, the whole 
truth, and nothing but the truth so help you God? Let the 
record state that the witness answered in the affirmative.
     Our witness today is Director Mark Inch of the Federal 
Bureau of Prisons. He oversees the operation of 122 Bureau of 
Prisons facilities with approximately 188--6,000 offenders. He 
has a distinguished career of public service, including as a 
military police officer for 35 years in the army and as a 
graduate of Wheaton College and the University of Texas at 
Austin.
     Mr. Inch, would you summarize your testimony in about 5 
minutes, and then we will have questions under the 5-minute 
rule. Go ahead.

   STATEMENT OF MARK INCH, DIRECTOR, FEDERAL BUREAU OF PRISONS

     Mr. Inch. Thank you, Chairman. Good morning, Chairman 
Sensenbrenner and Ranking Member Jackson Lee and members of the 
subcommittee. I appreciate the opportunity to appear before you 
as I complete my seventh month, as of today, in this position 
to discuss the mission and the operation of the Federal Bureau 
of Prisons.
     I am humbled to serve as the agency's ninth Director, and 
I care deeply about our responsibility to the American people 
and the corrections profession.
     I am honored to speak on behalf of the 37,000 Bureau 
staff, corrections professionals who support the agency's law 
enforcement mission. These dedicated public servants are on the 
job 24 hours a day, 7 days a week, operating Federal prisons 
that are safe, cost effective, humane, and provide appropriate 
re-entry programs. It is through their hard work and dedication 
that the Bureau has earned its excellent, well-deserved 
reputation.
     Chairman, I want to thank you for your support to the 
Bureau. Our mission is challenging: protecting the safety of 
the public, our staff, and the inmates while also preparing 
inmates to be productive, law-abiding citizens when they return 
to our communities.
     Our prisons hold tens of thousands of drug traffickers, 
many weapons offenders, and other dangerous individuals. We 
house over 23,000 gang-affiliated inmates who pose threats in 
and outside our facilities. More than 40 percent of our inmates 
classify as high and medium security, due in large part to the 
extensive criminal histories, severity of the current confining 
offense, and the histories of violence. Yet and still, our 
staff answer the call to duty every day.
     I come to the Bureau with a great appreciation for our 
mission and have a well-developed set of principles about our 
individual responsibility as corrections professionals. I 
applaud the Bureau's philosophy that all staff are correctional 
workers first. I am convinced that this philosophy is a 
critical element to the long-term success of the agency.
     One of the things I appreciate about the corrections 
profession is the selfless service demonstrated by those who 
choose this career. They dedicate their lives to helping and 
protecting others yet receive little recognition and even less 
praise. Every day, Bureau staff must enter in an inherently 
hazardous environment that most others would avoid to ensure 
the safety of the public, the staff, and the inmates for whom 
we are responsible.
     As the leader of the country's premier department of 
corrections, I am committed to ensuring the Bureau of Prisons' 
staff exhibit the highest ideals of our corrections profession, 
and through the shared values establish standards of individual 
and institutional performance and commitment to the character 
and competent standards of our profession. I am very proud that 
all of our Federal prisons are accredited by the American 
Correctional Association, and all of our prisons are PREA-
compliant as well.
     These are significant accomplishments and signal that our 
prisons are meeting the professional standards for safety, 
security, sanitation, and programming. But we expect even more 
of our agency, and I am working with our senior leaders to 
begin work on significant priorities I established after my 
first 90 days on the job.
     Of course, the priorities include areas of concern that 
have been identified by some of you as well as your colleagues 
on the Senate side, other stakeholders such as our own staff, 
including union leaders, and by outside interest groups.
     As I am prepared to discuss our actions and 
accomplishments over the past year, I also look forward to 
reporting back to you at my next hearing about all the progress 
we will have made to enhance the operations of the Bureau of 
Prisons in furtherance of our mission.
     In that vein, I want to discuss an issue of which I am 
sure many of you are aware: the elimination of over 5,000 
vacant positions throughout the Bureau from our personnel 
manning documents. I want to be absolutely clear with the 
subcommittee; this will not result in any job loss.
     These are positions, vacant positions, not people. This is 
based upon the Congressionally-approved fiscal year 2017 DOJ 
spend plan. These positions have been unfunded for some time 
and will not result in any staff members being displaced or any 
reduction in force. And again, because these are vacant 
positions, their elimination will not have a negative impact on 
public safety or on our ability to maintain a safe environment 
for staff and inmates.
     The Bureau looks forward to continuing to support the law 
enforcement efforts of the Department of Justice and the 
administration. As an integral and essential component of the 
Federal crime reduction effort, we continue our focus on agency 
effectiveness and efficiency to safely and securely incarcerate 
inmates and reduce recidivism.
     Chairman Sensenbrenner, Ranking Member Jackson Lee, and 
members of the subcommittee, this concludes my formal 
statement. I would be happy to answer any questions you may 
have.
     Mr. Sensenbrenner. Thank you very much. Recognizing that 
you are the new kid on the block or almost the new kid on the 
block, I think we will cut you a little slack on the questions 
today, or at least I will. But the chair will withhold his 
first round of questions and recognize the gentleman from 
Florida, Mr. Rutherford, for 5 minutes.
     Mr. Rutherford. Thank you, Mr. Chairman. Director, good to 
see you today.
     Mr. Inch. Good to see you, sir.
     Mr. Rutherford. Listen, can you tell me just a little bit 
about the opioid treatment program within BOP and where most of 
that is housed, actually?
     Mr. Inch. Thank you, Representative Rutherford. The aspect 
of treatment of opioid addictions, of course, is very important 
within a prison environment as is the protection of contraband 
being brought in. Where we are right now, of course, we have a 
holistic approach to all the aspects of treatment of our 
inmates and have a well-developed care level system for 
providing physical and mental health treatment.
     As it relates, specifically, to treatment and perhaps if 
the following question is to discuss aspects of MAT, 
medication-assisted treatment, we are at a point right now that 
we have piloted the use of naloxone to assist with the 
transition out of our facilities. And of course, you know, we 
do not use other medicated treatment within our facilities. And 
so, we will be starting with the initial aspect within two of 
our residential re-entry centers in Boston.
     Mr. Rutherford. But it is all directed toward withdrawal 
not long-range maintenance, correct?
     Mr. Inch. Yes, it is.
     Mr. Rutherford. Okay. One other thing. I was reading about 
the security protocols for personnel, searches of officers as 
they come in the facilities and saw where the Federal Labor 
Relations Board had forced some changes in your policy on 
screening employees for contraband. And the I.G.'s office 
seemed to think that it had quite watered down the process. Do 
you have changes that you would like to make in that policy for 
screening employees as they come into your facilities?
     Mr. Inch. Representative, at this time, I am not 
recommending changes. The aspect of looking at the introduction 
of contraband into the facility, I recognize that yes, a staff 
member could be one source of that introduction. If I could 
fall back a little bit on my military background of using the 
term ``defense in depth,'' you know, of course, we have 
procedures, both technology as well as, you know, search 
procedures and the like, as well as looking for indicators to 
address the introduction of contraband into our facilities.
     Mr. Rutherford. Okay. And lastly, I like to ask--I know 
that you are doing some robust data collection. And the things 
that I saw listed were fine, but I was wondering, because they 
were not listed in the information that I had read. But are you 
collecting information on the number of officers assaulted, the 
number of officers injured, the number of prisoners injured, 
the number of prisoners assaulted, and the number of prisoners 
with additional add-on charges?
     And what I am getting at is I particularly want to know, 
number one, how officers are being supported by add-on charges 
when they are battered by inmates.
     Mr. Inch. So Representative, yes, we do maintain that 
data. And I would not be able to, you know, work off those 
numbers from memory.
     Mr. Rutherford. Sure, sure.
     Mr. Inch. But I certainly would be happy to work with your 
office----
     Mr. Rutherford. Okay.
     Mr. Inch [continuing]. And, you know, review the data that 
we have, how we collect that data, and discuss that aspect.
     Mr. Rutherford. Thank you. I will have staff get with it. 
Thank you very much.
     Mr. Inch. Thank you, sir.
    Mr. Rutherford. I yield back.
    Mr. Sensenbrenner. Gentleman from Maryland, Mr. Raskin.
    Mr. Raskin. Mr. Chairman, thank you so much and welcome, 
Mr. Inch. There have been several news stories about staff 
shortages and cuts that have resulted in the deployment of 
secretaries, teachers, counselors, cooks, and medical staffers 
into guard posts at prisons across the country. I understand 
this process is called augmentation, where you take someone out 
of their normal post as a cook or a nurse and make them into a 
guard. And I know it has come under some scrutiny and some 
criticism.
    The Federal Labor Relations Authority has ruled in favor of 
employees who protested their reassignment because of safety 
considerations, and I know the AFGE has expressed concern about 
this practice. Have you considered how staff shortages and 
augmentation are affecting the safety of inmates and the safety 
of your employees?
    Mr. Inch. Thank you, Representative Raskin. It is a very 
important point and, I recognize, probably one of the key 
issues that we will discuss today. At the risk of using your 
entire 5 minutes, the short answer to the question is yes, I am 
concerned. The personnel management within the Bureau of 
Prisons and how we address going from normal operations to 
those things that affect the actual day-to-day operations at 
each specific institution certainly has my attention.
    So it brings into the aspect of not only the use of 
overtime, the determination of the right number of posts that 
we run in our specific facilities, but also that aspect of 
using staff that are correctional workers first, which is a 
very important point. They have the training. Many have already 
been correctional officers and then had moved on to and 
promoted to other positions within the facility but do have 
both the initial training and the training to man security 
posts when the situation requires. But we watch that aspect 
very closely. And I am sure later I can discuss different ways.
    Mr. Raskin. Can I just follow up on that point?
    Mr. Inch. Please.
    Mr. Raskin. So the people who are there who are serving as 
nurses or food personnel or religious service workers or 
whatever, you are saying that all of them have the same 
training as the guards do?
    Mr. Inch. They all attend the same initial training at 
FLETC. They all do the same [inaudible] training, weapons 
qualification. And, again, they are all Federal law enforcement 
officers. They all receive Federal law enforcement officer pay. 
Excuse me, pay and retirement. They are correctional workers 
first. And they perform the detention mission. And if you go to 
statute, it is the aspect that even in their duties of working 
food service, working, teaching, they are in the facility, and 
they are contributing to the detention mission daily.
    Mr. Raskin. And do they receive the continuing education 
and training that the guards do?
    Mr. Inch. Yeah, the same [inaudible] training. It is fair 
to ascribe to, in our great correctional officers, the 
experiential learning that they gain within the facility, 
recognizing, again, that some that are called upon to augment 
the correctional force were correctional officers prior. But 
those who are not, you know, the warden takes into 
consideration in identifying post and place, you know, the 
relative experiential learning. But again, they are performing 
the detention mission every day.
    Mr. Raskin. I got you. And let me switch gears and ask you 
about something else that I am curious about. And I know this 
mostly from Maryland, where I was a State Senator and we dealt 
with this issue of residential segregation, or what we used to 
call solitary confinement. You call it, I guess, the special 
housing in the----
    Mr. Inch. Restrictive housing.
    Mr. Raskin. Restrictive housing. As I understand it, the 
inmate population has gone down. The number of serious assaults 
taking place in Federal prisons has gone down. And yet, the 
number of people in special housing has gone up. Can you just 
explain why that is? You know, why there would be an increase 
in the number of prisoners being held that way.
    Mr. Inch. So the aspect of restrictive housing is very 
important within the corrections profession and with the 
orderly running of a facility. Variety of reasons of why we do 
restrictive housing from disciplinary to administrative reasons 
for separating. Just to frame it very quickly is, of course, 
the majority of those inmates we have in restrictive housing, 
it is still a two-person cell. But it is a closer controlled 
model that is necessary for periods of time. We are always 
looking for ways to decrease it, but it is a very important 
tool for staff safety and for the orderly running of a facility 
for those who would be disruptive and cause others to be 
disruptive in the facility.
    Mr. Raskin. And I am just curious about why the numbers 
have gone up if the number of serious assaults as I read it has 
gone down.
    Mr. Inch. So I would argue that the use of our restrictive 
housing----
    Mr. Sensenbrenner. The gentleman's time is expired.
    Mr. Raskin. Forgive me, Mr. Chairman.
    Mr. Sensenbrenner. The gentleman from New York, Mr. Nadler, 
the ranking member of the full committee.
    Mr. Nadler. Thank you, Mr. Chairman. Mr. Chairman, I first 
ask unanimous consent to insert my opening statement into the 
record.
    Mr. Sensenbrenner. Without objection.
    Mr. Nadler. Thank you. I also ask unanimous consent to 
place into the record a letter we have received from Judge 
Ricardo Martinez, chair of the Criminal Law Committee of the 
Judicial Conference of the United States to the Bureau of 
Prisons Director, Mr. Inch, expressing concerns about BOP's 
closure of 16 halfway houses across the country and stating 
that the availability of bed space in the remaining facilities 
is inadequate from the standpoint of effective re-entry and 
also providing court's appropriate alternatives to 
incarceration in some circumstances.
    Mr. Sensenbrenner. Without objection.
    Mr. Nadler. Thank you, Mr. Chairman. Director Inch, I am 
concerned about the issues underlying the reduction in 
residential re-entry centers has not been entirely resolved. 
Last year, Acting Director Kane testified that RRC placements 
were quote, ``scarce and expensive,'' unquote. Subsequent to 
those comments, 16 RRC contracts were ended, either canceled or 
not resolicited or option years not renewed, characterizing 
those facilities as underutilized.
    Can you explain the basis for the scarce and expensive 
statement? Do you believe that statement to be true today? And 
how can you have these facilities are scarce and expensive, but 
they are underutilized?
    Mr. Inch. Thank you, Representative Nadler. I mean, that is 
a very important question. And the use of our residential re-
entry centers, commonly called halfway houses, which is a very 
important aspect of our Federal effort to re-integrate inmates 
back into their home communities. It is rather a large 
constellation of over 230 facilities nationwide done primarily 
through contracts with private entities, but also with public 
entities.
    So in terms of the comment of my predecessor, not 
addressing that specifically, the goal I have set for our team 
based on the report by the Office of the Inspector General is 
to run this $350 million enterprise efficiently for this 
calendar year to understand the capacity of the system. You 
mention the 16--I believe the decision would have been made 
last May to--from that point to, I believe, the last of those 
16 facilities closed in February, they did not close. We ended 
our contract in February. It was a recognition that in those 
facilities we had two issues with capacity management and, 
frankly, overspending against our budget in 2017.
    And that was in some facilities that had excess bed 
capacity, meaning the contractor had the space, we actually 
went over our contract caps of how we had designed the system. 
The second reason was then, again, a series of underutilized 
facilities.
    The underutilized facilities, the 16 that have been 
reported, certainly over these past months, represented about 1 
percent of the bed space. So what we are doing this year, 
recognizing that to use the system as efficiently and 
effectively as possible, certainly, we are not going to exceed 
our caps by location. But focusing our effort on the new 
statement of work that was prepared last year.
    Mr. Nadler. Excuse me. You are giving a lot of words, but 
you are not answering the question.
    Mr. Inch. Okay.
    Mr. Nadler. And my time is expiring. In your written 
testimony, you say that RRC bed space is limited. We must be 
judicious with our use of resources, but you are closing 16 
facilities. How can these 16 facilities be underutilized when 
placements are considered scarce and expensive? In less than 50 
words, please.
    Mr. Inch. I will do it in very short term. Their location 
did not justify the number of inmates that were being released 
to that area.
    Mr. Nadler. So I got what you said. So you have a shortage 
of beds, but you had a surplus of beds in those areas.
    Mr. Inch. Yes.
    Mr. Nadler. Okay. Let me ask you one other question 
quickly. A memo has been distributed to prisoners in Coleman, a 
BOP facility in Florida, noting a new policy to ban all books 
from publishers, book stores, book clubs, and from friends or 
family. The new process for prisoners to receive books 
requiring electronic requests from prisoners to the staff, who 
will then place the order and accept payment from prisoners, 
will make it so that only prisoner with access to funds can 
have access to books.
    Given that books are such an important part of rehab and 
education inside the prison, in what way does this new policy, 
which will clearly harm indigent prisoners, meet the mission of 
the BOP? In other words, you say unless you have money, you 
cannot have reading material.
    Mr. Inch. So I recognize you are short on time. I can come 
by your office, sir. And I will talk about that policy.
    Mr. Nadler. Can you answer the question, please?
    Mr. Inch. Okay. So the memo you are looking at, I have not 
actually seen that memo. But the work that we are doing on 
combatting the introduction of contraband into our facilities 
addresses multiple ways materials are brought to our 
facilities. As we look and pilot different ways----
    Mr. Nadler. But can you make sure that people without 
access to money have access to books?
    Mr. Inch. Oh, absolutely. We have recreational, 
professional libraries.
    Mr. Nadler. So you will rescind that restriction insofar as 
it violates what I just----
    Mr. Inch. We absolutely have recreational and legal 
libraries in our facilities.
    Mr. Sensenbrenner. The gentleman's time has expired. The 
gentlewoman from Texas, Ms. Jackson Lee, the ranking member of 
the subcommittee.
    Ms. Jackson Lee. Mr. Chairman, thank you. Thank you very 
much for holding this hearing. I know that we had scheduled it 
sometime before. To the Director, let me thank you, Director 
Inch. We have had phone conversations, and I would be remiss if 
I did not thank you for your years of service to this Nation, 
and we are grateful to have you. I look forward in my capacity 
to have some ongoing discussions in my office as we had 
indicated that we would.
    So let me just very quickly say that I am disappointed in 
the fact that the DOJ lifted the financial moratorium, the 
funding moratorium on other DOJ agencies but did not lift it on 
the BOP, and that certainly came after your involvement. But 
that means that, as my colleague from Maryland indicated, cooks 
and doctors and other persons may be used for work that I 
believe the corrections officers are a profession and they are 
trained to do. So let me register my complaint on the record. 
Maybe in one of my questions you can answer what is your 
response to that funding shortage.
    But the question I have, having visited a number of prisons 
when trying to get to a number of others, I have seen some good 
works, but what is your relationship with the union? And 
working with these men and women, I think it is crucial that 
you have a working relationship, because they are the eyes and 
ears in the conflict. Let me have you note that so that I can 
be cognizant of my chairman.
    I also am concerned. In the private prisons, I hear 
different stories. They are not responding to Freedom of 
Information Act requests. They indicate that if you, meaning 
the Federal Bureau of Prisons, would direct them to do so, they 
would. And I believe you cannot have an institution that has 
governmental connection and families cannot get information 
about the mistreatment of their family members.
    And I am concerned about the May 2013 report on solitary 
confinement. The GAO issued a highly critical report indicating 
that the refinement housing seriously mentally ill inmates in 
solitary, inadequate mental health treatment and staffing. Let 
me see if I can get that. I am going to have another question, 
but can you just give me pithy answers for that, please? 
Particularly going right to the union first.
    Mr. Inch. Okay, let me start with the union. I feel I have 
a good relationship with the union president, Mr. Eric Young. 
We have an open line of communication. We met last week. I 
believe we have union representation in the room. You want to 
raise your hands? So the aspect--of course, this is new for me, 
coming from military----
    Ms. Jackson Lee. And you will continue those discussions 
with the union members, because I think the dialogue for you 
will be very, very important.
    Mr. Inch. Absolutely.
    Ms. Jackson Lee. Go right ahead.
    Mr. Inch. Okay. Then the----
    Ms. Jackson Lee. Private prisons say they do not respond to 
the FOIA request; and I have a bill that says they should.
    Mr. Inch. Yeah. Allow me to research that and gain better 
knowledge that, and then----
    Ms. Jackson Lee. Yes.
    Mr. Inch [continuing]. I will come back to you.
    Ms. Jackson Lee. I think you will find that if you direct 
them to do so, I might not have to have this legislation.
    Mr. Inch. Okay.
    Ms. Jackson Lee. Then, of course, solitary confinement, 
which has been a concern of mine. What are you doing about this 
GAO report that you are housing seriously mentally ill inmates 
in solitary confinement? You might also explain the criticism 
of poor healthcare access there as well. There have been some 
calls for improvement in the quality of medical care. Because I 
have one more, so I am going fast. Yes, sir.
    Mr. Inch. I will go fast with you. So what we established 
is secure mental health units. I have visited both of them, one 
in Atlanta, the other one at Allenwood. I am very impressed 
with the program. In fact, we will present on that at the 
American Correctional Association this summer. It is very 
important that we have a program to bring them out of 
restrictive housing.
    Ms. Jackson Lee. Yeah, but can you promise me that you will 
take a hard look at solitary confinement? Maybe we will have to 
continue that discussion and see whether or not--we know it has 
to protect the population and the individual, but solitary 
confinement can be a very devastating confinement, and I am 
particularly concerned juveniles--and you have a few, I know--
that may be subjected to that. So let's leave that on the 
record.
    Let me, quickly, go to the issue of the potential reform of 
the prison system that I think you need to go back to the 
administration. When I say that a bill that may be coming 
through this committee, you just cannot do the reforms that we 
are trying to do with the staffing that you have. You need more 
staffing.
    So my question to you, will you, as this bill makes its way 
through, reach out to the DOJ, your boss, to indicate that it 
is unfair where we are right now in terms of staffing? Will you 
assess that and do so?
    Mr. Inch. I will be very involved, as I am now, with the 
Department as we discuss different reform proposals.
    Ms. Jackson Lee. And I have a good time credit bill that I 
want to share with you. And I look forward to speaking with 
you.
    Mr. Sensenbrenner. The gentlewoman's time has expired.
    Ms. Jackson Lee. I yield back, Mr. Chairman. Thank you.
    Mr. Sensenbrenner. Okay. The gentlewoman from Florida, Mrs. 
Demings.
    Mrs. Demings. Thank you so much, Mr. Chairman. And thank 
you, Director Inch, for being here, and congratulations on your 
relatively new position. Many, many years ago--and it has been 
a while--I did my college internship in a correctional facility 
in Florida. And while it has been a while, my memories of that 
experience are still very vivid. And then having served 27 
years in law enforcement, I am quite familiar with the business 
that you are in.
    One thing that causes me some concern: As a police chief, 
one thing I knew every day was that there was no way I could 
accomplish my mission, the very critical mission that had been 
assigned to me, with severe budget or staffing shortages. And 
there are very few directors or chiefs or sheriffs who I have 
ever heard say that they can. But you feel that you can. So I 
would like to hear a little bit more about that.
    Officer safety, inmate safety, community safety, I believe, 
is directly tied to appropriate staffing levels. And so, I 
would like to hear more about why you feel that it is okay to 
support severe staffing shortages, number one. And then I would 
like to know if you have advocated, in any way, to the 
Department of Justice or anybody to lift the hiring freeze.
    Mr. Inch. Thank you, Representative Demings. So getting 
directly to the heart of staffing, of course, I came in in 
September. So that would have been kind of at the tail end of 
the work on the fiscal year 2019 President's budget request. Of 
course, 2018 had already been over here. Let me break it into 
just three groups very quickly.
    First group, as I did in my open comments, talking about 
the vacant, unfunded positions that have been the case. I 
looked back 10 years, well over 5,000. It was a management 
technique done by the department to assist wardens, I would 
argue, for hiring flexibilities. We were directed in 2017 to 
have our manning documents match our budget documents. Not 
people, positions on pieces of paper. For 2018----
    Mrs. Demings. Sometimes budgets where you are allocated may 
not have anything to do with your exact staffing needs.
    Mr. Inch. Yeah, correct.
    Mrs. Demings. Or making it fit within the budget.
    Mr. Inch. Correct. Yeah. So the focused aspect then is 
working within our staffing guidelines. I have been briefed on 
our staffing guidelines. Our last review was in 2016. Staffing 
guidelines are that----you know, we have 122 different 
facilities, different custody grades, different programs, 
different facility structures. So, it is a guideline by which 
the warden determines the operational necessary positions for 
security let alone the programming. So, the aspect of that is, 
really, it is facility by facility by facility that we have to 
assess through our programmed reviews that we have the right 
staffing.
    Now what has happened in 2017--of course, we can look at 
the history of when the hiring freeze was, when that really was 
lifted for our facilities--but those methods we took to address 
hiring versus attrition. I will state clearly here is our 
hiring did not keep up with attrition in 2017. So, I adjusted 
our procedures in January for internal hiring to pick up that 
pace. And then, for external hiring I made adjustments in 
March. Because what I think is being felt at the facilities has 
nothing to do with the vacant unfunded--because that is a 
management technique--what the feeling was the hiring pace 
against attrition. But that has----
    Mrs. Demings. Yes, let me ask you a question, Director--and 
I hate to cut you off, but back to the augmentation. You know, 
just hearing that it sounds pretty ridiculous to me, but I hear 
you that they received the same amount of training, although I 
think performing the jobs every day, I believe it is a 
diminishing skill, right? And so, I believe your policy says 
that you use it only during emergencies, or it is reserved for 
emergencies. How often do you use the practice of augmentation, 
roughly?
    Mr. Inch. Yes. Very hard to say----
    Mrs. Demings. Would you say daily?
    Mr. Inch. I would say facility by facility that----
    Mrs. Demings. Would you say pretty much if you had to 
answer that question that you use the practice of augmentation 
on a daily basis at some facility throughout the United States 
of America?
    Mr. Inch. Yes.
    Mrs. Demings. And do you feel--with my last few seconds--
that the eight-inmate-to-one-officer ratio is adequate? As the 
Director of the Bureau of Prisons, ultimately responsible for 
the safety of your officers, the inmates, that you feel that 
that is appropriate?
    Mr. Sensenbrenner. The gentlewoman's time has expired.
    Mrs. Demings. Can I get a yes or no?
    Mr. Sensenbrenner. Can you say yes or no to that?
    Mr. Inch. Ma'am, I can come by your office. The ratio does 
not satisfy me as a yes or no. It has got to be way more 
detailed than that facility by facility.
    Mrs. Demings. Thank you, Mr. Chairman.
    Mr. Sensenbrenner. Okay. The gentlewoman from Alabama, Mrs. 
Roby.
    Mrs. Roby. Thank you, Chairman. And thank you, Director, 
for being here today, and for your service. And we appreciate 
your time. I certainly appreciate the service and sacrifices of 
the 37,000 Bureau of Prisons corrections professionals who put 
their lives on the line every single day.
    So, can you please provide us with an update as it relates 
to body armor for the Bureau? Do you have what you need? Can 
you provide a short overview about how it is periodically taken 
out of service and replaced with lighter, more suitable, or 
survivable armor?
    Mr. Inch. Representative, thank you. Officer safety, of 
course, is a very important issue and both the introduction of 
OC pepper spray at medium and high, the introduction of body 
armor; we are exploring the expansion down our custody grade. 
My understanding--but if you will allow me to get back to you 
and your staff on this--is that we have successfully placed it 
at our high facilities--Administrative Maximum, the higher 
security--and are working down the custody grades. But I can 
get you a complete layout of our fielding plan and our 
replacement plan.
    Mrs. Roby. I would appreciate that very much. I 
understand--and actually this number seemed low to me, but you 
can correct me if I am wrong--that over 23,000 prisoners are 
affiliated with gangs.
    Mr. Inch. That is correct.
    Mrs. Roby. And so, how frequently do prisoners enter 
prisons with existing gang affiliation, and then how many 
prisoners actually join--if you have an estimate--with a gang 
while in prison. And what do we need to do to combat the impact 
of gangs in our prisons?
    Mr. Inch. Yes, Representative. A very, very important topic 
to discuss in our gang management--though I do not have on the 
top of my head a figure of those who come to us affiliated with 
a gang. The 23,000 number is correct. And then how many then 
start affiliating with a gang while in incarceration?
    The management is a very detailed process as we work to 
understand the gangs and the gang activity--the criminal 
activity they are trying to do from inside the facility out or 
inside the facility--and how we work the different gang groups, 
and those that could be in the same recreation area or those 
who we would never put in the same recreation due to safety of 
the inmates and safety of the staff.
    If you would like, I could set up a time to come by and I 
could bring some of our subject matter experts that really work 
this issue.
    Mrs. Roby. That would be great. I think maybe expounding 
upon that, one of the issues is related is contraband and 
cellphones, which seems to be a seemingly difficult--over 
time--issue within the Bureau for you guys to deal with, which 
would be related to gang activity or any other criminal 
activity that is taking place within the system reaching out. 
So, if you want to provide us an update with that as well.
    Mr. Inch. So, very quickly on that, with the introduction 
of contraband there is processes, technology, future technology 
that we work for. So, just taking cellphones as an example: I 
very much appreciated the chairman at the FCC holding a 
conference that connected us with the wireless carrier users as 
well as the different companies that deal with different 
aspects of jamming. We have done a proof of concept of 
microjamming to understand its capabilities, limitations. The 
report is not yet out for that.
    Mrs. Roby. When do you expect that report?
    Mr. Inch. I do not know when the report will be completed 
on that.
    Mrs. Roby. Can you follow up with us on this?
    Mr. Inch. I would be happy to. You know, there is other 
aspects. When you think of things we have already done--
everything from thermal fencing to full-body scanners, the 
different things we do on entry, aspects of how we supervise 
visitation--the introduction of contraband is as varied as the 
history of the Bureau of Prisons and corrections.
    Mrs. Roby. Sure.
    Mr. Inch. And there are just days where I think, `You just 
cannot make this up.'
    Mrs. Roby. Sure.
    Mr. Inch. And we are very cognizant of that.
    Mrs. Roby. And I only have 30 seconds left, but I would 
also like for you to address the press reports about 
radicalization by extremist organizations taking place within 
our prison population. And again, I have got 15 seconds, so 
with all the information that you are going to bring back to 
me, if you could also provide me your perspective on that issue 
and how we can combat that trend. And Mr. Chairman, I yield 
back.
    Mr. Sensenbrenner. The gentlewoman's time is expired. The 
gentlewoman from California, Ms. Bass.
    Ms. Bass. Thank you. Thank you for your time appearing 
before us today, Director Inch. I wanted to follow up on my 
colleague, the ranking member. He asked a question about the 
policy in Coleman Prison, and I wanted to know--you made 
reference to books that are available from a library, but this 
policy says that books are banned from publishers, book stores, 
book clubs, and friends and family. You said you were not aware 
of it, and I understand that. My question is, can you do a memo 
or some type of communication to all of the prisons under your 
authority that under no circumstances would books be banned?
    Mr. Inch. Representative Bass, again, thank you for the 
follow-up on that question. And I will certainly communicate if 
there is a misconception that we are withholding educational 
and recreational books, legal books of any form, because that 
is certainly not the case----
    Ms. Bass. I would just encourage you to follow up with 
Coleman, because this does not seem to be a misperception. This 
seems to be a directive from that prison, and I certainly hope 
that this is the only case that such a policy was distributed.
    Mr. Inch. So, after this hearing I will certainly review 
that memo.
    Ms. Bass. Thank you. I wanted to ask you about women who 
are incarcerated and who are pregnant. I know that it is the 
general policy of the Bureau that a woman is supposed to notify 
the Bureau if she is pregnant. But it is also my understanding 
that you test all women inmates? It is a question.
    Mr. Inch. Okay. I will need to confirm that aspect. I have 
researched these aspects of our processes of how we care for 
women in pregnancy. I am assuming--but that is a bad thing to 
do in a hearing--that we do a test of----
    Ms. Bass. Are you aware that in some prisons, that when a 
woman is pregnant that she is shackled and has restraints on 
her throughout her pregnancy, including in her third trimester 
as well as during labor and delivery? Are you aware of that?
    Mr. Inch. I know that does not happen in Federal 
institutions, yes.
    Ms. Bass. Well, I think that it does because there have 
been a number of lawsuits filed against prisons because of 
that. I wanted to know if you have ever heard of any instance 
in which an inmate has either attempted to escape or escaped 
from State--now, there are a number of States and State prisons 
that prohibit or severely restrict the use of restraints on 
inmates in their third trimester, during labor, delivery, or 
postpartum.
    Mr. Inch. Representative Bass. So, no I have not reviewed 
the States' practices. In this timeline here, I have 
specifically reviewed our practice in Federal Bureau of 
Prisons. I know for a fact----
    Ms. Bass. So, you do not know of any instance----
    Mr. Inch. I know for a fact we have not shackled women in 
any stage of pregnancy during the time I have been here, nor 
can anyone remember a time in recent history where we have done 
that.
    Ms. Bass. Okay, so maybe we should let you know about 
lawsuits that are pending?
    Mr. Inch. I will ask those questions again as I go back.
    Ms. Bass. How do you determine whether a pregnant inmate 
has received adequate care? So, my office has met with 
corrections officers who have raised concerns about staffing 
shortages, and--well, there is medical, there is also 
nutrition. What is the protocols?
    Mr. Inch. So, at the Federal Bureau of Prisons, of course, 
we have Health Services Division. We have both trained medical 
personnel throughout our system as well as medical 
administrators, members of the public health services----
    Ms. Bass. So, are there specific protocols around the 
nutritional needs and health needs of pregnant inmates?
    Mr. Inch. Though I have not personally reviewed that, I 
speculate there is, and I will confirm it upon return to our 
central office.
    Ms. Bass. Also, if you could document for me--and I know 
you do not have this information now--but I would like to know 
the number of women who are pregnant in prison and delivered in 
the last couple of years and with the outcomes. How many 
delivered normally, how many delivered through C-section, and 
what were the birth outcomes?
    Mr. Inch. We will go back and research that. I certainly do 
not have that----
    Ms. Bass. I would also like to know about private prisons 
that are under your authority. Are there differences in terms 
of protocol, in terms of the healthcare as well as the 
nutrition? How it is handled?
    Mr. Inch. Certainly. So, we have 11 private prisons 
currently that we use from three different providers that 
predominantly address criminal alien low population. Within our 
contract there is absolutely standards of appropriate medical 
care, and we check on that. We have on-site personnel that 
check that.
    Ms. Bass. So, are all of the private prisons for 
immigrants?
    Mr. Inch. So, for the 11. The predominant reason we use, in 
the Federal system, private prisons is for criminal alien low 
custody. By statute, of course, we have also some D.C. 
offenders in our facilities as well.
    Mr. Sensenbrenner. The gentlewoman's time has expired.
    At this point, let me say, Director Inch, that you have 
said in response to numerous questions on both sides of the 
aisle that you have to get back and provide data. And what I 
would ask you to do is to scrub the transcript of this hearing, 
provide the data in a written form, and I would ask unanimous 
consent that that response be placed in the hearing record 
without objection.
    Ms. Bass. Thank you, Mr. Chairman.
    Mr. Sensenbrenner. The gentleman from Louisiana, Mr. 
Johnson.
    Mr. Johnson of Louisiana. Thank you Mr. Chairman. Director 
Inch, thank you for being here. I am going to speak quickly 
because I have a lot I was going to try and squeeze in. I 
wanted to pick up on where my colleague, Congresswoman Demings, 
left off on the augmentation practice. It is a great concern to 
us. Augmentation as it has been explained is when the agency 
authorizes non-custody officers to step in and fill vacant 
posts of correctional officers. This is nurses, counselors, 
maintenance crews employed in a Federal prison asked to step in 
and perform the duties of a correctional officer. Would you 
agree that this creates a dangerous situation for those 
employees?
    Mr. Inch. No.
    Mr. Johnson of Louisiana. We are asking nurses, counselors, 
kitchen staff, non-custody officers to guard inmates all alone. 
They are equipped only with keys or radio and handcuffs. 
Typically, the guards are outnumbered by 100 to 150 inmates, 
and you say that is not a dangerous situation?
    Mr. Inch. Representative Johnson, again, this issue is a 
very important issue, and staff safety is absolutely my 
concern. The aspect of identifying a certain population of 
Federal law enforcement officers that we have in our 
facilities--I did discuss earlier that all our employees in our 
Federal Bureau of Prisons are correctional workers first. They 
perform a detention mission no matter what their duties are. 
And, in fact, many within the facilities started as 
correctional officers and then moved into positions. Others 
were direct hires as you would expect; for example, nurses or 
those.
    The practice of identifying within a facility those 
operationally necessary positions that must be manned for 
running of a safe facility--the wardens do have the ability to, 
either through overtime or augmentation--is to address placing 
the person with the right skills at that location. Now, every 
one of our employees has the same initial training at FLETC. In 
fact, today I will be flying down there to observe that. And 
then the same annual training requirements, weapons 
requirements.
    You should expect of a warden, and the experiences that our 
wardens had is that they place those that with more 
experiential learning; for example, if somebody grew up as a 
correctional officer and is now a counselor, that they would 
identify that person to a certain post compared to another 
post.
    Mr. Johnson of Louisiana. But that is not always happening. 
I mean, we have recent reports that you have all types of non-
custody officers being asked to supervise dangerous inmates. 
And so, are you saying that the decision is unilaterally that 
of the warden?
    Mr. Inch. Representative, they are supervising dangerous 
inmates in the performance of their primary duties as well, 
whether it is in food service, whether it is in the health 
center, whether it is in the education class. They all perform 
that detention mission. There are some systems in which they 
divide correctional officers from non-custodial staff. And so, 
for example, if there was an education class there would be a 
correctional officer standing there as well. We do not do that 
in the Federal system. Everybody is a correctional worker 
first.
    Mr. Johnson of Louisiana. Well, I am just going to tell 
you, I have met with a number of these from my home State of 
Louisiana. They are not comfortable with that assignment. Many 
of them feel like they are endangered and I feel like they have 
good reason to be. Can you inform the committee the total 
number of assaults on Bureau of Prisons staff committed by an 
inmate in 2017?
    Mr. Inch. I do not have that at the top of my head. I know 
that we are on a 3-year downward trend. I will get you the 
exact number. It is in the 100 to 200 range if my recollection 
is correct.
    Mr. Johnson of Louisiana. I appreciate that. Very quickly, 
the Federal Correctional Institute in Oakdale, in South 
Louisiana--it is in my district----
    Mr. Inch. Yes.
    Mr. Johnson of Louisiana. They are currently scheduled to 
lose about 77 positions, all of which are currently vacant. Why 
have those positions not been filled?
    Mr. Inch. I have gone back 10 years to look at this. So, 
the manning policies for the Bureau of Prisons is, there is the 
budgeting side that has budgeted us approximately at 89 to 91 
percent of our manning. Our manning documents always had that 
10 percent over as a method by which they gave flexibility to 
the wardens. The positions were never funded, and though vacant 
positions could switch, the total aggregate number did not 
switch.
    So, what has been directed from the 2017 spend plan--and 
has already actually had that action at department level--is 
that we are making the budget authorization, having our manning 
documents match that. So, as I did in my opening statement, the 
removal from our manning documents--these positions--are not 
real people. It is a shift in how we are doing personnel 
management at facilities.
    Mr. Johnson of Louisiana. Well, I am just going to tell you 
the folks down there are greatly concerned about it. They think 
it is a dangerous situation, and I agree with them. So, I look 
forward to seeing your statistics. I wanted to yield to Mr. 
Marino, and I am out of time.
    Mr. Sensenbrenner. The gentleman's time has expired. The 
other gentleman from Louisiana, Mr. Richmond.
    Mr. Richmond. Thank you, Mr. Chairman, and thank you 
Director Inch. Let me just ask you a general question. What is 
the recidivism rate of inmates coming out of federal prison?
    Mr. Inch. I believe for Federal prison at 3 years we are at 
43 percent, but I will verify that figure. I believe I had it 
in the written testimony.
    Mr. Richmond. Wow. And that is coming back to Federal, or 
coming back to Federal or State--going back to either?
    Mr. Inch. I believe that number would be a reincarceration. 
The Sentencing Commission has an excellent report that actually 
breaks it down between reoffending, reincarcerated----
    Mr. Richmond. Do you know the recidivism rate of private 
prisons that you use?
    Mr. Inch. I do not; I will have to go back and check that. 
Unless we are talking about the D.C. population, 
Representative, we use it for criminal alien low, presumably 
unless they are being transferred to another incarcerated 
aspect. Depending on the decisions of the courts, many are 
extradited; so I am not sure the recidivism rate would apply as 
the Federal system uses private systems. We could certainly do 
it for the D.C. inmates that are in the private.
    Mr. Richmond. Let me ask you this question. Forty-three 
percent is pretty high. Can you rank the top five programs that 
reduce recidivism that you all offer in our prisons, in terms 
of effectiveness?
    Mr. Inch. Representative, excellent question. So, what I 
think are the most important things that affect the recidivism 
rate. I would say first it is the culture by which we operate 
our facilities. That is from the frontline correctional 
officer----
    Mr. Richmond. No, no, no. I am looking for the programs. 
Because it is my understanding that the RDAP program is not in 
the top five.
    Mr. Inch. I think the RDAP program is exceptionally 
important. So----
    Mr. Richmond. Not that it is not important. One of the 
institutions we visited in Texas, the warden said that inmates 
participating in what would be prison enterprise would probably 
be number one in their mind.
    Mr. Inch. Their prison industry is an excellent program.
    Mr. Richmond. Right. So, I am just asking you to rank the 
programs, because RDAP is the only one that we provide good 
time for. So, if there are other programs that are effective in 
terms of reducing recidivism--because we are at 43 percent--
what are they so that we can look at trying to get more people 
to participate in those? That is the gist of the question.
    Mr. Inch. So, do I consider RDAP important? Very important, 
and I do recognize there is an incentive for it. I think 
Federal prison industry is important. Yes, I do. Do I think 
that requires incentive? No, we have a waiting list of inmates 
who want to participate.
    I would add into that vocational training. As we look at 
many of the discussions that are going on now for improvements 
in reentry program, there is great potential of vocational 
training, education. Both language skill and GED for----
    Mr. Richmond. But if you participate in those you do not 
get any good time?
    Mr. Inch. That is a correct statement.
    Mr. Richmond. Do you think you should get good time for 
participating in those?
    Mr. Inch. I do not think that is necessary, even in our 
education programs. I think the incentive of that education and 
the way, at least in our case, in many of the more desired 
vocational training Federal prison industry we make getting a 
GED as an appropriate gateway to going to that that we can 
incentivize that within our facility.
    Mr. Richmond. Well, then why do we have to incentivize 
RDAP? And I do not look at it as an incentivize; I really look 
at it as a reward for doing something to better yourself that 
reduces the likelihood of another victim when you get out of 
prison and reduces the chances of you coming back for us to 
continue to pay to incarcerate you.
    Mr. Inch. So, it is hard to generalize on the motivation of 
all of those that participate in RDAP. I have visited quite a 
few of our programs and I have spoken with the inmates. 
Entering a therapeutic community is intimidating, at least as 
it has been expressed to me. The amount of opening oneself up 
to a community is so----
    Mr. Richmond. Let me get my final point because the 
chairman is a stickler for time. Every 7 days of good time that 
we can give our Federal population saves the taxpayers $50 
million. You are authorized to give 54 days a year. You average 
47 days a year good time. That $50 million could be used to 
fully fund the RDAP program or other things. So, why are we not 
maximizing the good time for those who qualify?
    Mr. Inch. Representative, I understand the history of this 
discussion and the litigation history of it as well and how we 
in the Bureau define it. I would be at a disadvantage to do a 
legal discourse at this point, but I do recognize the 
litigation history of the definition of how we give good time.
    Mr. Sensenbrenner. The chair gave some good time to the 
gentleman from Louisiana. It was an important question, but 
that is expired now.
    Mr. Richmond. Thank you. Thank, you Mr. Chairman.
    Mr. Sensenbrenner. The gentleman from Ohio, Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman. And I would note that 
one of the signs that we have a good chairman is being a 
stickler on times. So, I would thank the chairman for doing 
that. In that light, I have got three things I want to touch 
on. I am going to try to yield time to Mr. Marino, who I know 
he is chomping at the bit down there.
    First of all, residential reentry centers provide 
transitional services and programs for offenders moving from 
incarceration to our communities. The time spent in these 
placement centers is critical for successful transition where 
these men and women are, again, tasked with making decisions 
for themselves for the first time in a long time, which is 
especially true for inmates who have served long sentences.
    It has come to my attention that the Bureau of Prisons 
lacks sufficient reentry center capacity leading to inmates 
spending oftentimes more time in prison, and then being 
released directly into our communities without appropriate 
supervision, which can be a detriment to our public safety. 
Could you describe the current capacity for residential reentry 
center placement and is there anything we can do realistically 
to improve that?
    Mr. Inch. Representative Chabot, that is an excellent 
question, and the importance of our residential reentry centers 
and how we reintegrate inmates back to their home communities 
is very important, and I agree with you on that. We ascribe 
about $350 million to a constellation--because it is all 
private providers or other government agency providers--a 
constellation of over 230 centers ideally placed at the 
locations of greatest release. Because you were correct in that 
4 to 6 months when they are at the facility we are trying to 
connect them with employment, housing, and their family; and I 
absolutely agree with you that it is most important for the 
inmates at the high-end. So, we release anywhere between 40,000 
to 44,000 inmates per year.
    It is based on other risk factors and the like. 
Approximately 80 percent would participate in that program or 
home confinement or both.
    So, in terms of the capacity this year: In 2017 we actually 
exceeded our contractual limits--that was pointed out by OIG--
as well as there was a small number of facilities that were 
underutilized. Facilities in locations that capacity was about 
1 percent of the bed space. But those facilities are 
underutilized, or there were other facilities in which another 
RRC could pick up that.
    The challenges as I look at the constellation of our 
residential reentry centers is two things: It is to the extent 
of how far out it can spread and the cost that is associated 
with it. My goal this year in 2018 is just to have very clear 
usage data against the ascribed budget so that I can make very 
logical budget requests in the future.
    Mr. Chabot. Thank you. I have got 2 minutes. Two questions 
to go and I want to get to you so I am just going to talk very 
briefly about the other things.
    First of all--it already came up, for one thing--the 
cellphones. Whatever we can do to stop the communication 
between inmates and the gangs outside, or whatever, is good. I 
understand we have got a letter from the Federal Communications 
Commission. We have been looking at this for a while. There is 
a task force, and I think the first meeting is at the end of 
this month, so----
    Mr. Inch. And we are a key member of that task force.
    Mr. Chabot. We appreciate that. And finally, prison 
industries came up. I am a big fan of that, keeping those in 
prison occupied. Most of them are going to be out some day. If 
they have got a skill and it keeps them out of trouble to some 
degree when they are in there, it makes the guards safer. So, 
we need to promote prison industries. So, you do not 
necessarily need to respond. I yield whatever time I have left 
to the gentleman from Pennsylvania, Mr. Marino.
    Mr. Marino. Thank you. Welcome, sir. So, I am going to get 
right to the point, fire off some questions. If you cannot 
answer each one in 5 seconds, I know you have a staff behind 
you and I know this is going to be part of the record for you 
to answer.
    I am an 18-year prosecutor, both State and U.S. attorney. I 
have been in many, many of your prisons. I think we have one of 
the largest prison complexes in my district. Allenwood, McKean, 
and Lewisburg. I have been there, I have visited many times.
    And now I want to concentrate on corrections officers, 
corrections officers, corrections officers. Not staff members 
who fill those positions. Why are we not hiring outside the BOP 
to fill those corrections officers?
    Mr. Inch. We are now.
    Mr. Marino. Okay. That is good. Let's just go on to, I have 
a real problem with inexperienced staff. You can train me as a 
corrections officer and a year down the road if I have done 
nothing concerning corrections work and you call me on board, I 
may not be ready for those split-second decisions like these 
men and women are who are the corrections officers. Why are we 
cutting 6,000 positions when it seems like, and correct me if I 
am wrong, we are building two new prisons: one in Kentucky and 
one in Illinois? The next thing I want to talk about----
    Mr. Sensenbrenner. The time of the gentleman from Ohio has 
expired. Would the Director submit Mr. Marino's questions for 
the record?
    Mr. Inch. Yes, Chairman.
    Mr. Sensenbrenner. Okay. The gentleman from New York, Mr. 
Jeffries.
    Mr. Jeffries. Thank you, Mr. Chairman. And I thank the 
Director for your appearance here today and your service to the 
country. Now, educational and vocational programs for Federal 
prisoners have shown to significantly reduce recidivism. Is 
that correct?
    Mr. Inch. That is correct.
    Mr. Jeffries. And are you familiar with a recent RAND study 
that concluded that inmates participating in these types of 
educational and vocational programs are 43 percent less likely 
to reoffend and return to prison?
    Mr. Inch. I have read several studies, but that seems 
consistent with studies I have read of the importance of 
education and vocational training.
    Mr. Jeffries. Are the educational and vocational programs 
are extremely popular within the Federal system, is that right?
    Mr. Inch. Yes, sir, Representative.
    Mr. Jeffries. And as I understand it, there is 
approximately 15,000 Federal inmates who are on waiting lists 
for such programs. Is that right?
    Mr. Inch. I would have to check that figure.
    Mr. Jeffries. Okay. But it is a substantial number of 
inmates who are waiting to get access to educational and 
vocational programs, is that right?
    Mr. Inch. I believe the 15,000 number, if you combine it 
with educational, that is tied in with those that are in the 
pipeline do get GEDs. Some having to do education, learning to 
read from prior, other disabilities aspect. But yes, the aspect 
of education and vocational training, there is a demand for 
that.
    Mr. Jeffries. I recognize the demand as well as the 
importance in reducing recidivism. I think the previous 
administration in 2016 hired an education specialist to 
overhaul programs in the Federal Prison System and also create 
what it called a semiautonomous school district within the 
Federal Prison System, in order to help facilitate reentry.'' 
Is that right?
    Mr. Inch. That is correct.
    Mr. Jeffries. And last year, the current administration 
fired the specialist. Is that right?
    Mr. Inch. If you want to use that term, yes. The person 
that was brought in----
    Mr. Jeffries. Let go, released, tossed aside, fired.
    Mr. Inch [continuing]. Let go, released. Given another 
option, but did not stay, yes.
    Mr. Jeffries. Okay. And the programs that you have 
acknowledged on the record are important in terms of 
facilitating successful reentry have been scaled back and/or 
scrapped. Is that right?
    Mr. Inch. Now, I would not state it that way, 
representative. I would say that the recommendations in the 
Bronner Study which is what you are referring to with the 
establishment of a school system like aspect at central office, 
which would have added, would have grown us by about, I 
believe, 40 positions. The decision was made prior to me 
arriving to not take that approach but to continue with how we 
address supervision of our education program.
    Mr. Jeffries. Is it also fair to say that these educational 
and vocational programs which we have established successfully 
facilitate reentry, which also reduce violence on the outside 
against American citizens, are also important in maintaining 
safety for the courageous Bureau of Prison correctional 
officers, as well? Is that right?
    Mr. Inch. Absolutely.
    Mr. Jeffries. So, it would seem to me that the 
Administration is going in the wrong direction, not the right 
direction. Both as it relates to your own employees who are 
providing for the maximum amount of safety within the system, 
as well as for American people on the outside, and the 
opportunity to give these individuals a successful opportunity 
to reenter our society. So, I would ask that you just, within 
the Department of Justice, perhaps pursue a more aggressive 
posture toward the Attorney General or others who are taking us 
in a direction that I do not think is a healthy one for a wide 
variety of reasons.
    In addition to the fact that as Cedric Richmond pointed 
out, these type of programs save taxpayer dollars. And instead, 
what we are seeing is the VOP is relying on augmentation, which 
I do not think is helping anyone as it relates to both the 
inmates and the correctional officers as well.
    In the time that I have remaining, I just want to ask 
briefly about private prisons, which has also been the subject 
of some discussion now. In 2016, the Department of Justice took 
the step in a memorandum that I believe was authored by Sally 
Yates, of phasing out the Federal use of private prisons. Is 
that right?
    Mr. Inch. I am familiar with those actions at that time. 
Yeah. Yes, sir.
    Mr. Jeffries. And it is my understanding that one of the 
first acts of the new Attorney General on February of 2017, he 
rescinded that memorandum that ordered the phase out of the 
Federal use of private prisons. Is that correct?
    Mr. Inch. Not that I saw that memorandum since I have come 
on, but we continue to use private prisons. Yes, sir.
    Mr. Jeffries. Okay, and I would just ask, given all that 
has been documented about the fact that inmates are more likely 
to recidivate in the private prison context, the safety 
conditions, the humanity of the conditions in which they are 
maintained, dramatically different than what is done in the 
Bureau of Prison System that that be reevaluated internally. 
Certainly, I think we are going to continue to put external 
pressure on you as well. I yield back.
    Mr. Sensenbrenner. The gentleman from Texas, Mr. Gohmert, 
the vice chair of this subcommittee.
    Mr. Gohmert. Thank you, Mr. Chairman. And I appreciate 
being here. With regard to cellphones, it is a huge problem in 
both Federal and State facilities, State prisons. Have you 
looked at just having jamming capabilities? So, of course, that 
would mean prison guards could not use their cellphones, but 
because there is so much control and participation by inmates 
in nonconfined gangs, I would think it would be worth it. Have 
you looked at it? Have you studied jamming all signals from 
prison?
    Mr. Inch. Representative Gohmert, thank you for bringing 
that up again. Cellphones; you are absolutely correct. It is 
very important. So, yes, we have. We have done a pilot on micro 
jamming which is one method by which we are researching an 
ability to jam. There are other ways of jamming. There is, 
frankly, ways that we can work with the wireless cell carriers 
as well. So, the meeting that was hosted by the FCC chairman, I 
was able to participate in that along with the representatives 
of the wireless carriers, different organizations, and we are 
members of the task force that came out with that.
    Mr. Gohmert. So, there is only a pilot program right now?
    Mr. Inch. So, there have been different pilot, yeah, there 
are different programs, both have been State piloted as well as 
we did one very recently. The report is not yet completed on 
that.
    Mr. Gohmert. So, it is State piloted? You did not do the 
pilot program?
    Mr. Inch. No, we did one at one of our facilities----
    Mr. Gohmert. Only one?
    Mr. Inch [continuing]. Micro jamming.
    Mr. Gohmert. Yeah.
    Mr. Inch. We also have----
    Mr. Gohmert. Well, look. My time is running out. I just 
would appreciate it if you would make it more extensive than 
one pilot program. It is a huge problem and apparently people 
are getting killed at the direction of people within prisons 
from what we read and hear.
    But then, on to reading. Books are important and books can 
help if they are the right kinds of books, even help reduce 
recidivism, you know. For example, Christian groups that have 
truly mentored use workbooks and whatnot is extremely helpful 
in reducing recidivism dramatically. I understand that books 
can also be the source of extensive smuggling, so I understand 
concern there. But what about if you allowed books not to be 
sent to individual inmates but books that are sent to the 
library, to put in the library, after a thorough analysis of 
whether or not there is any potential for contraband? Have you 
considered something like that?
    Mr. Inch. Well, I am certainly going to need to research 
that, because, you know, we do maintain both recreation, 
religious, legal libraries and provide material like that, so I 
am not sure the----
    Mr. Gohmert. Well, I understand, but sometimes there are 
great books that the library would not order that an inmate, 
that somebody wanting to help inmates would be willing to send 
and pay for. And the question is, would the library in the 
prisons accept it? And you ought to have a very thorough way to 
analyze to make sure there is no contraband.
    So, obviously that has not been something you have done, 
but I would really encourage you to look at that potential 
policy change as a way to allow. I mean, fantastic books are 
being written all the time your libraries will not have, and 
you do not have the money to go buy them all. So, I would 
suggest that.
    One other area I want to hit right quick. Radicalization 
was brought up earlier, but I would direct your attention to a 
man name Al-Amoudi. During the Clinton administration, he had 
an agreement with the Clinton administration to help them find 
people he considered good Muslims to be chaplains. That 
included in the military, that included in the government, it 
included in prisons. And from what I have read, he helped find 
imams to be chaplains in prisons.
    Mr. Al-Amoudi, no thanks to the FBI, Director Mueller had 
blinded our FBI of their ability to spot radicalized Muslims, 
so he was not capable. But as I understand, MI6 provided 
information on--by the way, he also did the same thing under 
the Bush administration until MI6 provided our government a 
slam dunk case. Al-Amoudi was supporting terrorists.
    And I would just suggest to you there ought to be a study 
in your Federal prisons to see which ones were placed there, 
recommended by Al-Amoudi since he is doing 23 years in Federal 
prison and see whether or not there is radicalization 
heightened in those prisons that a terrorist placed that imam. 
I thank the Chairman.
    Mr. Sensenbrenner. The gentleman's time has expired. 
Gentleman from California, Mr. Lieu.
    Mr. Lieu. Thank you, Mr. Chair. Thank you, Director Inch 
for being here today and thank you for your over 3 decades of 
service to the U.S. Military. I previously served on active 
duty and I am still in the Reserves. And as a JAG, I had a lot 
of interaction with military police as well as corrections 
facilities, so thank you for your service, too.
    I have a few questions about the Federal Bureau of Prisons. 
First of all, let me say, I appreciate your comments to 
Representative Jeffries that you support education and 
vocational programs. And as you are aware, any large population 
of people, certain programs have more impact for certain people 
than others. And some folks might really love and enjoy a 
plumbing course, and some might hate that and not want to do it 
at all.
    So when we were in California, I served for 9 years in the 
State legislature, and we realized there was a program known as 
``Arts in Corrections,'' that ended up actually really having a 
large impact for some of the prisoners in California. And I 
increased funding for it when I was in the State legislature 
and it showed that these Arts in Corrections programs resulted 
in improved behavior among inmates, fewer disciplinary actions, 
reduced recidivism, and it produced a cost savings.
    So, the Federal Bureau of Prisons actually runs six of 
these programs, as you know, in conjunction with the National 
Endowment for the Arts. The prior director stated that the 
Bureau of Prisons supported these programs.
    I just want to get you on the record that you also agree 
that arts in prisons programs are important tools to help 
rehabilitate prisoners.
    Mr. Inch. I support it. Yes.
    Mr. Lieu. And if we got you additional funding for 
educational and vocational programs, you would not oppose 
looking at expanding these programs if you had additional 
funding, correct?
    Mr. Inch. Representative Lieu, the issue of specific 
programing is, you know, I am actually very encouraged with the 
Federal Interagency Crime Prevention and Reentry Improvement 
Council, bringing the FIRC forward. As we address all different 
program recommendations and how we assess them.
    So, on the six that we have, I have not personally observed 
the program yet, but I have received great reports especially 
on the discipline behavior of the inmates that participate in 
it. And I find that is encouraging.
    Mr. Lieu. Thank you. So, there have been amazing groups. 
One of them is, for example, is Actor's Gang and they invite 
people to watch what they do. And so, I would assume you would 
not be opposed to if you or a member of your staff would be 
able to see one of these programs in action, correct?
    Mr. Inch. As I do my travel, that is on my list. I would 
like to see that.
    Mr. Lieu. Thank you. So, I would like to talk about 
pretrial detention. It turns out that a lot of people are 
actually detained and using the taxpayer resources, even though 
they have not been convicted of anything. And the statistics 
show that if we exclude immigration cases, the percentage of 
Federal defendants detained in pretrial increase from 53 
percent to 59 percent, from 2006 to 2016.
    And what I want to know is how can we try to reduce the 
number of pretrial detainees? Because it is spending a lot of 
taxpayer resources. It is not clear if there is a huge effect 
on public safety. So my first question is do you know 
approximately how many inmates at the Bureau of Prisons are 
currently in pretrial detention?
    Mr. Inch. Representative, I can certainly get you that 
figure because we do have our metropolitan detention centers 
supporting U.S. Marshals, certainly with pretrial detention. I 
do not have the figure----
    Mr. Lieu. Okay.
    Mr. Inch [continuing]. Right on top of my head.
    Mr. Lieu. It is my understanding that some of these folks 
are detained for quite a long time. Hundreds of days and if we 
could get some sort of movement on maybe ways to reduce the 
number of days they are awaiting pretrial, because that also 
would save taxpayer funds as well.
    Mr. Inch. Sorry. I think this would be a case that I would 
refer that to the department level, considering that I do not 
actually impact those that are placed in pretrial detention, 
let alone sentencing. And obviously that comes from the 
different processes outside the Bureau of Prisons, so I think I 
would want to defer that to the department level.
    Mr. Lieu. Okay. So, why do not we do this. Is it okay if we 
sent you a letter with some questions, and then you can refer 
it to the best people to answer it and then provide a response 
back to us?
    Mr. Inch. Certainly, sir. Yeah.
    Mr. Lieu. Thank you. I yield back.
    Mr. Sensenbrenner. The gentleman from Texas, Mr. Poe.
    Mr. Poe. Thank you, chairman. Thank you for being here. I 
have several questions and then I want to go over one topic, 
specifically in more detail. What is the cost to run the Bureau 
of Prisons in the United States?
    Mr. Inch. Our budget is approximately $7.1 billion.
    Mr. Poe. My question was the cost, not the budget. Is the 
budget and the cost the same thing? It is not a trick question. 
How much does it cost to run the Bureau of Prisons?
    Mr. Inch. Representative Poe, so as we go through the 
budgeting process, of course, I arrived here at the tail end of 
the work on the 2019 budget. There are cost factors based on 
what we want to address that exceed----
    Mr. Poe. Excuse me, Director. I just want to cut to the 
chase.
    Mr. Inch. Exceeds that number.
    Mr. Poe. Okay. It is higher than the budget.
    Mr. Inch. Certainly.
    Mr. Poe. Okay. It is not a criticism. It is just a 
question. What is the recidivism rate of the Bureau of Prisons, 
the Federal Bureau of Prisons? In other words, recidivism rate. 
What is the recidivism rate when an inmate is released from 
prison, what is the recidivism rate when an inmate comes back 
to Federal prison?
    Mr. Inch. My understanding at 3 years, it is 43 percent, 
but I will verify those figures.
    Mr. Poe. Forty-three percent within 3 years. All right. How 
many inmates in the Federal penitentiaries?
    Mr. Inch. Currently we are just under 185,000.
    Mr. Poe. How many of those are foreign nationals?
    Mr. Inch. Current foreign national is approximately 40,000.
    Mr. Poe. Forty-thousand of a hundred----
    Mr. Inch. Foreign-born?
    Mr. Poe. That is right.
    Mr. Inch. I believe that is correct.
    Mr. Poe. Forty-thousand of the hundred and what?
    Mr. Inch. One-hundred-and-eighty-five thousand, just shy of 
that number.
    Mr. Poe. Okay. I am a former judge in Texas, 22 years. I 
saw a lot of folks come to the courthouse or ``palace of 
perjury'' as I referred to it in those days. About 25,000 
felons. I think I am somewhat familiar with the prison system. 
I am a big believer in putting inmates to work in a productive 
way where that when they get out of prison, they can use 
whatever skills they learned in prison. Good skills, not the 
bad skills, to be a productive member of our community.
    I represented Beaumont for a while, and I went to the 
Beaumont Federal Penitentiary. And I am sure, being in the 
military, you know what this is. It is a Kevlar helmet. And it 
was made by the inmates at the Beaumont Federal Penitentiary.
    Mr. Inch. Yes, I did.
    Mr. Poe. I went and talked to them and, you know, they have 
got American flags everywhere. They are very proud of what they 
are doing for the war on terror. And I got the impression from 
them that this was something that they wanted to do, was be 
involved in working in a productive way as all of us should. 
But I understand that the system of using inmates for work is 
dropping. In other words, the number of people that are working 
in our prison system who are inmates is dropping. Can you 
explain why that is?
    Mr. Inch. I can, Representative Poe. So, actually right 
now, the number of inmates we are back increasing again. After 
several years, repeated years, of monetary losses, there was a 
requirement to restructure the business because this is a 
nontaxpayer-funded enterprise. So they have to be successful.
    Frankly, the assistance that came from Congress in 
addressing the ability to do repatriation, for example, has 
provided the opportunity that once we did a business model of 
collapsing on what we could do within the cost figures, we are 
growing back out again. And very positive movements especially 
as new business development as it relates to repatriation.
    Mr. Poe. Do you have any statistics on inmates that 
participate in the Federal prison industries, their recidivism 
rate when they leave prison?
    Mr. Inch. Yes, we do, and I just drew a blank, but I will 
get you that figure. But we certainly have very positive 
aspects, and I will get that to you real quick.
    Mr. Poe. Do you remember if it is higher or lower than the 
40 percent for everybody else?
    Mr. Inch. For those who participate as opposed to those who 
do not participate, 16 percent? Twenty-four percent.
    Mr. Poe. Recidivism rate?
    Mr. Inch. Yeah. So the recidivism rate is lower than those 
who do not participate than those who do participate.
    Mr. Poe. Okay.
    Mr. Inch. Difference of 24 percent. Very positive.
    Mr. Poe. So, you say that the system is--the industry is 
being used again? Inmates are starting to sign up for it again 
or?
    Mr. Inch. Well, we have always had a waiting list. We have 
no problem with inmates participating in the program. It is 
running those programs----
    Mr. Poe. Oh, it is the bureaucracy that does not work. 
Okay. I yield back. Thank you.
    Mr. Sensenbrenner. The gentleman's time has expired. The 
chair yields himself 5 minutes. Director Inch, you may or may 
not know that two Congresses ago, Representative Bobby Scott of 
Virginia and I introduced the rather broad Prison and 
Sentencing Reform Bill which had a lot of talk but not too much 
action here.
    The last Congress, we did have some action here but it 
never made it to the floor. There was a lot of talk about it. 
One of the things that both efforts attempted to look at was 
lowering the recidivism rate, which I think everybody would 
agree is a good thing.
    We have heard a lot of talk about a lot of programs, 
beginning with Mr. Richmond's questions. And I am wondering if 
you have had any statistics in the Bureau of Prison that talks 
about which programs in the prison inmates have had, and then 
the recidivism rate on how many of the people who have been in 
those programs end up reoffending and being convicted again. 
You know, this would be the type of information that both you 
and we would need to find out, what works and what does not. Do 
you have that kind of stuff?
    Mr. Inch. So, we do. Of course, we have looked at 
recidivism rate for Federal prison industry, for the RDAP 
program, and the like. And actually, in this process that we 
are doing this year with FIRC, of course, is trying to have 
clear evidence-based analysis of different programs. Those that 
are being recommended to us, those that are being used in 
States, those that we are using so that we can make, you know, 
very positive recommendations on funding, appropriate 
expansion, or even elimination of programs if they are shown 
not to work.
    Mr. Sensenbrenner. Forty-three percent recidivism rate is 
not very good, because the job of any prison system is 
``corrections.'' And at least 43 percent of the people in there 
are not being corrected. And one of your jobs, I think, is to 
correct them, you know, as well as to have people who have been 
convicted pay their debt to society. Because we do not want to 
have prisons become a place where you learn how to become an 
even hardened criminal.
    And there is a lot of questioning, you know, about whether 
that is the net result of how we are operating our prisons. And 
we in this subcommittee want to have a change and I think the 
public would support us.
    Now, I want to go to cellphones. Mr. Gohmert brought this 
out. You know, obviously somebody having a contraband cellphone 
while they are incarcerated allows them to do business as usual 
even though they are not on the street collecting whatever 
money is being paid for their illegal activities. Now if I try 
to take a cellphone through the magnetometer at the airport, 
the TSA is going to nail me and say, ``Run this thing through 
the X-ray so we can see if it is a cellphone or something that 
is much more dangerous than that.''
    So, you know, rather than trying to have jamming devices 
which end up denying the use of everybody else--you know mainly 
the employees of the prison and the corrections officers the 
use of their own cellphones for personal use--why we cannot 
just use what the TSA does to make sure that cellphones that 
get on planes are really cellphones rather than something that 
is not? And here we could just flip this over and do the 
reverse, saying that if there is, you know, if it is a 
cellphone, you do not get it and you keep it out or maybe you 
get a big bucket like the TSA has where they throw the 
contraband in.
    Mr. Inch. Chairman, you describe our procedures. As I 
understand it, certainly as I have experienced in the 22 
facilities I have gone into, is that, you know, I do not take 
in my personal cellphone, because we do not take our personal 
cellphones into the facilities, and I walk right through a 
metal detector. And then, I have to take my belt off.
    So that aspect, that is one area where we combat the 
introduction of cellphones. Of course, there is other 
absolutely ingenious ways, everything from taking a football 
and filling it with cellphones and trying to throw it over the 
fence into the exercise yard. It is just amazing, the daily 
competition for the introduction of cellphones that we work 
through.
    But we, everything from our full body scanning of inmates 
as they come in, thermal imaging on the fence line, and other 
ways, and, of course, our issue on addressing drone technology 
is very important as well.
    Mr. Sensenbrenner. Would you refer to filling a football 
with cellphones and tossing it over the fence as an f-bomb?
    Mr. Inch. No, I would not use that terminology, but.
    Mr. Sensenbrenner. Okay. Thank you very much. We are done 
with the questioning. The chair recognizes the gentlewoman from 
Texas, Ms. Jackson Lee, for a minute or two.
    Ms. Jackson Lee. Chairman, thank you for your kindness. Let 
me indicate that I would like to put several potent points on 
the record for your response, possibly oral response when we 
have the opportunity, but I would like you to circle these in 
particular.
    So, particularly, I want a better response on good time 
credits being used again. I would like to modify that by saying 
I have introduced a bill dealing with good time early release 
for elderly inmates who, statistics show because of medical 
concerns can be extremely costly. So, I would like to have that 
question. Compassionate release which is somewhat of a partner 
to that, but how that is utilized and is it utilized 
effectively as it relates to relevant inmates.
    And then, to respond to the incident where I think an 
inmate was held 13 months past the legitimate time that they 
were supposed to be released. That is a crucial issue that, I 
think, is of dignity to the individual and to the institution.
    Finally, let me say that as you have a good working 
relationship with the union, but it has come to my attention of 
prison assaults. Certainly, we know one that occurred in 2008 
where someone was attacked and there is a question about having 
corrections officers work together. Can you respond to the 
potential assaults on corrections officers and the staffing 
structure that would lessen that possibility? Thank you, Mr. 
Chairman.
    Mr. Sensenbrenner. Would you please submit answers to those 
questions for the record?
    Ms. Jackson Lee. I yield back.
    Mr. Sensenbrenner. This concludes today's hearing.
    Mrs. Demings. Mr. Chairman.
    Mr. Sensenbrenner. Now, is this a second round of 
questions?
    Mrs. Demings. I would like to interject something into the 
record.
    Mr. Sensenbrenner. The gentlewoman is recognized for a 
minute.
    Mrs. Demings. Thank you so much. Thank you so much, Mr. 
Chairman. I ask unanimous consent to insert two letters into 
the record that demonstrate the broad bipartisan concern among 
members both on and off this committee over the staffing 
shortages and augmentation practices discussed here today.
    Mr. Sensenbrenner. Without objection.
    Mrs. Demings. Thank you.
    Mr. Sensenbrenner. Well. Now this concludes today's hearing 
and I thank you, Mr. Inch, for coming into the frying pan here. 
We will get you back sometime. Without objection, all members 
will have 5 legislative days to submit additional questions for 
the witness and additional materials for the records, and 
without objection, the hearing is adjourned.
    [Whereupon, at 11:31 a.m., the subcommittee was adjourned.]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
